No. _________
IN THE SUPREME COURT OF THE UNITED STATES

GEORGE CORTEZ, JR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
APPENDIX

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Order Denying Petition for Rehearing
Appendix C Judgment and Sentence of the United States District Court for the
Northern District of Texas
Appendix D Judgment of Revocation and Sentence of the United States District
Court for the Northern District of Texas

APPENDIX A

Case: 18-11300

Document: 00515089746

Page: 1

Date Filed: 08/23/2019

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 18-11300
Summary Calendar

FILED
August 23, 2019
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
GEORGE CORTEZ, JR.,
Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:18-CR-122-1
Before WIENER, HAYNES, and COSTA, Circuit Judges.
PER CURIAM: *

Defendant-Appellant George Cortez, Jr., challenges the 36-month
sentence of imprisonment imposed following the revocation of supervised
release for his 2008 conviction for conspiracy to possess with intent to
manufacture and distribute methamphetamine.

Cortez contends that his

sentence, which exceeded the range provided in the policy statements of the
Sentencing Guidelines, is procedurally and substantively unreasonable.

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

Case: 18-11300

Document: 00515089746

Page: 2

Date Filed: 08/23/2019

No. 18-11300
Revocation sentences generally are reviewed under 18 U.S.C. § 3742(a)’s
“plainly unreasonable” standard. United States v. Miller, 634 F.3d 841, 843
(5th Cir. 2011).

Because Cortez failed to object on the procedural

reasonableness grounds he asserts on appeal, we review those arguments for
plain error. See United States v. Dunigan, 555 F.3d 501, 506 (5th Cir. 2009).
Under a plain error standard, Cortez must show a forfeited error that is clear
or obvious and that affected his substantial rights. See Puckett v. United
States, 556 U.S. 129, 135 (2009). We have discretion to correct such an error,
but will do so only if it seriously affects the fairness, integrity, or public
reputation of judicial proceedings. Id.
The record shows that the district court was aware of the advisory range,
that it implicitly considered that range, and that it stated that it had
considered all relevant § 3553 factors. See United States v. Smith, 440 F.3d
704, 707 (5th Cir. 2006). The record also shows that the district court heard
Cortez’s mitigation arguments and even discussed some of them with the
parties, but it found those arguments insufficient to excuse Cortez’s continued
violation of the conditions of supervised release. See United States v. Fraga,
704 F.3d 432, 438-39 (5th Cir. 2013). Finally, the district court sufficiently
explained the chosen sentence because its statements, in the context of the
entire hearing, show that it evaluated the various sentencing arguments and
based the sentence on Cortez’s repeated failure to comply with the conditions
of his supervised release. See United States v. Diaz Sanchez, 714 F.3d 289, 294
(5th Cir. 2013). Cortez has not shown that the district court plainly erred or
that his sentence is procedurally unreasonable.
We review the substantive reasonableness of the sentence for “an abuse
of discretion, examining the totality of the circumstances.” United States v.
Warren, 720 F.3d 321, 332 (5th Cir. 2013).

2

Although Cortez’s 36-month

Case: 18-11300

Document: 00515089746

Page: 3

Date Filed: 08/23/2019

No. 18-11300
sentence exceeds the policy statement range of 7 to 13 months, it is within the
statutory maximum of 60 months. “We have routinely affirmed revocation
sentences exceeding the advisory range, even where the sentence equals the
statutory maximum.” Id. (internal quotation marks and citation omitted).
Cortez has not shown that the district court failed to account for a factor that
should have received significant weight, gave significant weight to any
irrelevant or improper factors, or clearly erred in balancing the sentencing
factors. See id. Accordingly, Cortez has not established that the district court
abused its discretion or that his sentence is substantively unreasonable.
The judgment is AFFIRMED.

3

APPENDIX B

Case: 18-11300

Document: 00515302760

Page: 1

Date Filed: 02/07/2020

Case: 18-11300

Document: 00515302760

Page: 2

Date Filed: 02/07/2020

APPENDIX C

Case 4:07-cr-00091-MAC-AM Document 287 Filed 10/08/08 Page 1 of 6 PageID #: 298
4:18-cr-00122-A
Document 2 Filed 06/12/18 Page 6 of 16 PageID 7
(Rev. Case
06/05) Judgment
in a Criminal Case

2AO 245B

Sheet 1

United States District Court
EASTERN DISTRICT OF TEXAS
Sherman

JUDGMENT IN A CRIMINAL CASE

UNITED STATES OF AMERICA

V.
GEORGE CORTEZ, JR.

Case Number:

4:07CR00091-002

USM Number: 14315-078
John W. Key, III
Defendant’s Attorney

THE DEFENDANT:

✔pleaded guilty to count(s) 1 of a Superseding Indictment
G
G pleaded nolo contendere to count(s)
which was accepted by the court.

G was found guilty on count(s)
after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title & Section
21 USC § 846

Nature of Offense

Offense Ended

Conspiracy to Possess with Intent to Manufacture and Distribute
Methamphetamine

6

The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.

G The defendant has been found not guilty on count(s)
G Count(s)

G is

G are

Count

05/10/2007

1

of this judgment. The sentence is imposed pursuant to

dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defendant must notify the court and United States attorney of material changes in economic circumstances.

10/7/2008
Date of Imposition of Judgment

Signature of Judge

Michael H. Schneider
United States District Judge
Name and Title of Judge

Hello This is a Test

10/8/08

2/15/05

Date

18-11300.11

AO 245B

Case 4:07-cr-00091-MAC-AM Document 287 Filed 10/08/08 Page 2 of 6 PageID #: 299
Case
4:18-cr-00122-A
Document 2 Filed 06/12/18 Page 7 of 16 PageID 8
(Rev. 06/05)
Judgment
in Criminal Case
Sheet 2 — Imprisonment
Judgment — Page

2

of

DEFENDANT: GEORGE CORTEZ, JR.
CASE NUMBER: 4:07CR00091-002

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
total term of: 240 months

✔
G

The court makes the following recommendations to the Bureau of Prisons:

The defendant participate in an appropriate substance abuse treatment program, if eligible.

✔
G

The defendant is remanded to the custody of the United States Marshal.

G

The defendant shall surrender to the United States Marshal for this district:

G

G

at

G

as notified by the United States Marshal.

G a.m.

G

p.m.

on

.

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:

G

before 2 p.m. on

G

as notified by the United States Marshal.

G

as notified by the Probation or Pretrial Services Office.

.

RETURN
I have executed this judgment as follows:

Defendant delivered on
at

to
, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

18-11300.12

6

AO 245B

Case 4:07-cr-00091-MAC-AM Document 287 Filed 10/08/08 Page 3 of 6 PageID #: 300
Case 4:18-cr-00122-A Document 2 Filed 06/12/18 Page 8 of 16 PageID 9
(Rev. 06/05) Judgment in a Criminal Case
Sheet 3 — Supervised Release

Judgment—Page

DEFENDANT: GEORGE CORTEZ, JR.
CASE NUMBER: 4:07CR00091-002

3

of

6

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of : 5

years

The defendant must report to the probation office in the district to which the defendant is released within 72 hours of release from the
custody of the Bureau of Prisons.
The defendant shall not commit another federal, state or local crime.
The defendant shall not unlawfully possess a controlled substance. The defendant shall refrain from any unlawful use of a controlled
substance. The defendant shall submit to one drug test within 15 days of release from imprisonment and at least two periodic drug tests
thereafter, as determined by the court.

G

✔
G
✔
G
G
G

The above drug testing condition is suspended, based on the court’s determination that the defendant poses a low risk of
future substance abuse. (Check, if applicable.)
The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous weapon. (Check, if applicable.)
The defendant shall cooperate in the collection of DNA as directed by the probation officer. (Check, if applicable.)
The defendant shall register with the state sex offender registration agency in the state where the defendant resides, works, or is a
student, as directed by the probation officer. (Check, if applicable.)
The defendant shall participate in an approved program for domestic violence. (Check, if applicable.)

If this judgment imposes a fine or restitution, it is a condition of supervised release that the defendant pay in accordance with the
Schedule of Payments sheet of this judgment.
The defendant must comply with the standard conditions that have been adopted by this court as well as with any additional conditions
on the attached page.

STANDARD CONDITIONS OF SUPERVISION
1)

the defendant shall not leave the judicial district without the permission of the court or probation officer;

2)

the defendant shall report to the probation officer and shall submit a truthful and complete written report within the first five days of
each month;

3)

the defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;

4)

the defendant shall support his or her dependents and meet other family responsibilities;

5)

the defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or other
acceptable reasons;

6)

the defendant shall notify the probation officer at least ten days prior to any change in residence or employment;

7)

the defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any
controlled substance or any paraphernalia related to any controlled substances, except as prescribed by a physician;

8)

the defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;

9)

the defendant shall not associate with any persons engaged in criminal activity and shall not associate with any person convicted of a
felony, unless granted permission to do so by the probation officer;

10)

the defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit confiscation of any
contraband observed in plain view of the probation officer;

11)

the defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a law enforcement officer;

12)

the defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency without the
permission of the court; and

13)

as directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the defendant’s criminal
record or personal history or characteristics and shall permit the probation officer to make such notifications and to confirm the
defendant’s compliance with such notification requirement.

18-11300.13

AO 245B

Case 4:07-cr-00091-MAC-AM Document 287 Filed 10/08/08 Page 4 of 6 PageID #: 301
Case 4:18-cr-00122-A Document 2 Filed 06/12/18 Page 9 of 16 PageID 10
(Rev. 06/05) Judgment in a Criminal Case
Sheet 3A — Supervised Release

Judgment—Page

DEFENDANT: GEORGE CORTEZ, JR.
CASE NUMBER: 4:07CR00091-002

4

of

6

ADDITIONAL SUPERVISED RELEASE TERMS
The defendant shall pay any financial penalty that is imposed by this judgment, and that remains unpaid at the
commencement of the term of supervised release.
The defendant shall provide the probation officer with access to any requested financial information for purposes of
monitoring efforts to obtain and maintain lawful employment.
The defendant shall participate in a program of testing and treatment for drug abuse, under the guidance and direction of
the U.S. Probation Office, until such time as the defendant is released from the program by the probation officer.

18-11300.14

AO 245B

Case
4:07-cr-00091-MAC-AM Document 287 Filed 10/08/08 Page 5 of 6 PageID #: 302
(Rev. 06/05) Judgment in a Criminal Case
4:18-cr-00122-A
Document 2 Filed 06/12/18 Page 10 of 16 PageID 11
Sheet 5Case
— Criminal
Monetary Penalties
Judgment — Page

5

DEFENDANT: GEORGE CORTEZ, JR.
CASE NUMBER: 4:07CR00091-002

of

6

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
Assessment
TOTALS

Fine

$ 100.00

Restitution

$ 0.00

$ 0.00

G

The determination of restitution is deferred until
after such determination.

G

The defendant must make restitution (including community restitution) to the following payees in the amount listed below.

. An Amended Judgment in a Criminal Case (AO 245C) will be entered

If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise in
the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid
before the United States is paid.
Name of Payee

Total Loss*

$

TOTALS

0.00

Restitution Ordered

$

Priority or Percentage

0.00

G

Restitution amount ordered pursuant to plea agreement $

G

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

G

The court determined that the defendant does not have the ability to pay interest and it is ordered that:

G
G

the interest requirement is waived for the
the interest requirement for the

G

fine

G fine G restitution.
G restitution is modified as follows:

* Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or after
September 13, 1994, but before April 23, 1996.

18-11300.15

AO 245B

Case
4:07-cr-00091-MAC-AM Document 287 Filed 10/08/08 Page 6 of 6 PageID #: 303
(Rev. 06/05) Judgment in a Criminal Case
4:18-cr-00122-A
Document 2 Filed 06/12/18 Page 11 of 16 PageID 12
Sheet 6Case
— Schedule
of Payments
Judgment — Page

6

DEFENDANT: GEORGE CORTEZ, JR.
CASE NUMBER: 4:07CR00091-002

of

6

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties are due as follows:
A

✔
G

Lump sum payment of $

G
G

not later than
in accordance

100.00

G

C,

due immediately, balance due

G

D,

G

, or
E, or

G
G C,

F below; or

B

G

Payment to begin immediately (may be combined with

G D, or

G F below); or

C

G

Payment in equal
(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of this judgment; or

D

G

Payment in equal
(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a
term of supervision; or

E

G

Payment during the term of supervised release will commence within
(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F

G

Special instructions regarding the payment of criminal monetary penalties:

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due during
imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’ Inmate Financial
Responsibility Program, are made to:
the U.S. District Court, Fine & Restitution Section, P.O. Box 570, Tyler, TX 75710.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

G

Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

G

The defendant shall pay the cost of prosecution.

G

The defendant shall pay the following court cost(s):

G

The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of prosecution and court costs.

18-11300.16

APPENDIX D

Case 4:18-cr-00122-A Document 21 Filed 09/20/18

Page 1 of 6 PageID 161

IN THE UNITED STATES DISTRICT
NORTHERN DISTRICT OF TEXA
FORT WORTH DIVISION

OURT

. . . . . . _J?. . _.J
LSEP 2
_
r--~

0 2018

-~.,~,--

UNITED STATES OF AMERICA

_,

__

CLERK, U.S. DISTIUCT COURT
By _ _-;:---:---Deputy

§
§

vs.

§
§
§

GEORGE CORTEZ

NO. 4:18-CR-122-A

JUDGMENT OF REVOCATION AND SENTENCE
Came on to be heard, as contemplated by Fed. R. Crim. P.
32.1, the motion of United States of America to revoke the term
of supervised release imposed on defendant, GEORGE CORTEZ.
After having considered the grounds of the government's motion,
defendant's admissions, statements on behalf of defendant, and
argument of counsel, the court has determined that the term of
supervised release imposed on defendant should be revoked and
that defendant should be sentenced to a term of imprisonment of
36 months and to serve a 36-month term of supervised release upon
discharge from prison.
The court finds and concludes that:
(a)

Defendant was given,

in a timely manner, written

notice of his alleged violations of the term of supervised
release upon which the motion to revoke is based;
(b)

The motion to revoke the term of supervised

release was served on defendant in a timely manner prior to
the hearing;

Case 4:18-cr-00122-A Document 21 Filed 09/20/18

(c)

Page 2 of 6 PageID 162

There was a disclosure to defendant, and his

attorney, of the evidence against defendant; and
(d)

The hearing was held within a reasonable time.

Other findings and conclusions of the court were stated by
the court into the record at the hearing.

The court adopts all

such findings and conclusions as part of this judgment.
In reaching the conclusions and making the determinations
and rulings announced at the hearing, and as stated in this
judgment, the court considered all relevant factors set forth in
18 u.s.c.

§

3553(a) that are proper for consideration in a

revocation context.
The court ORDERS, ADJUDGES, and DECREES that the term of
supervised release, as provided by the Judgment in a Criminal
Case signed October 8, 2008 by a judge of the United States
District Court for the Eastern District of Texas in Case No.
4:07-CR-091-002 of that court, imposed on defendant on October 7,
2008, be, and is hereby, revoked; and
The court further ORDERS, ADJUDGES, and DECREES that
defendant, GEORGE CORTEZ, be, and is hereby, committed to the
custody of the United States Bureau of Prisons to be imprisoned
for a term of 36 months, to be followed by a term of supervised
release of 36 months.

2

Case 4:18-cr-00122-A Document 21 Filed 09/20/18

Page 3 of 6 PageID 163

The court further ORDERS, ADJUDGES, and DECREES that, while
on supervised release, defendant shall comply with the following
Standard and Special Conditions of Supervision:
Standard Conditions of Supervision
1.

The defendant shall report in person to the probation
office in the district to which the defendant is
released within seventy-two (72) hours of release from
the custody of the Bureau of Prisons.

2.

The defendant shall not possess a firearm, ammunition,
destructive device, or other dangerous weapon.

3.

The defendant shall provide to his u.s. Probation
Officer any requested financial information.

4.

The defendant shall not leave the judicial district in
which he is being supervised without the permission of
the U.S. Probation Officer.

5.

The defendant shall report to the U.S. Probation
Officer as directed by the court or U.S. Probation
Officer and shall submit a truthful and complete
written report within the first five (5) days of each
month.

6.

The defendant shall answer truthfully all inquiries by
the U.S. Probation Officer and follow the instructions
of the u.s. Probation Officer.

7.

The defendant shall support his or her dependents and
meet other family responsibilities.

8.

The defendant shall work regularly at a lawful
occupation unless excused by the U.S. Probation Officer
for schooling, training, or other acceptable reasons.

9.

The defendant shall notify the probation officer at
least ten (10) days prior to any change in residence or
employment.

3

Case 4:18-cr-00122-A Document 21 Filed 09/20/18

Page 4 of 6 PageID 164

10.

The defendant shall refrain from excessive use of
alcohol and shall not purchase, possess, use,
distribute, or administer any narcotic or other
controlled substance, or any paraphernalia related to
such substances, except as prescribed by a physician.

11.

The defendant shall not frequent places where
controlled substances are illegally sold, used,
distributed, or administered.

12.

The defendant shall not associate with any persons
engaged in criminal activity, and shall not associate
with any person convicted of a felony unless granted
permission to do so by the U.S. Probation Officer.

13.

The defendant shall permit a probation officer to visit
him or her at any time at home or elsewhere and shall
permit confiscation of any contraband observed in plain
view by the u.s. Probation Officer.

14.

The defendant shall notify the probation officer within
seventy-two (72) hours of being arrested or questioned
by a law enforcement officer.

15.

The defendant shall not enter into any agreement to act
as an informer or a special agent of a law enforcement
agency without the permission of the court.

16.

As directed by the probation officer, the defendant
shall notify third parties of risks that may be
occasioned by the defendant's criminal record or
personal history or characteristics, and shall permit
the probation officer to make such notifications and to
confirm the defendant's compliance with such
notification requirement.

4

Case 4:18-cr-00122-A Document 21 Filed 09/20/18

Page 5 of 6 PageID 165

Special Conditions of Supervision
1.

The defendant shall not commit another federal,
or local crime.

state,

2.

The defendant shall not unlawfully possess a controlled
substance. The defendant shall refrain from any
unlawful use of a controlled substance. The defendant
shall submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests
thereafter as directed by the u.s. Probation Office.

3.

The defendant shall participate in a program approved
by the probation officer for treatment of narcotic or
drug or alcohol dependency that will include testing
for the detection of substance use, abstaining from the
use of alcohol and all other intoxicants during and
after completion of treatment, contributing to the
costs of services rendered (copayment) at the rate of
at least $25 per month.

The court hereby directs the probation officer to provide
defendant with a written statement that sets forth all the
conditions to which the term of supervised release is subject, as
contemplated and required by Title 18 United States Code
section 3583 (f).
The defendant remanded to the custody of the U.S. Marshal.
The date of imposition of the sentence provided by this
judgment is September 20, 2018.

'
SIGNED September 20, 2018.

District

Case 4:18-cr-00122-A Document 21 Filed 09/20/18

Page 6 of 6 PageID 166

Personal information about the defendant is set forth on the
attachment to this Judgment of Revocation and Sentence.

6

